JULIA R. BATES

LUCAS COUNTY PROSECUTING ATTORNEY

 

Lucas County CourtHouse, 700 Apams STREET, SuITE 250, TOLEDO, OHIO 43604-5659
TELEPHONE (419) 213-4700 / FACSIMILE (419) 213-4595

 

August 18, 2021

VIA U.S. MAIL FOLLOWED
BY ELECTRONIC FILING

Scott S. Harris

Office of the Clerk

Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: Application to Extend Time to Respond
to Petition in Douglas Coley v. Ohio,
Case No. 21-5375

Dear Mr. Harris:

The State of Ohio, pursuant to Rule 30.4, respectfully requests a 28 day extension of time
in which to respond to the petition for writ of certiorari. This extension would move the State's
response date from Monday, September 13, 2021 to Monday, October 11, 2021.

Counsel seeks this extension because of a heavy workload in Ohio's appellate courts and
due to the undersigned's previously scheduled vacation from Monday, August, 30, 2021 through
and including Friday, September 10, 2021. Thank you in advance for your consideration of this

 

request.
Respectfully yours,
/
Brenda J. Majdalani
Assistant Prosecuting Attorney
Appellate Division, Lucas County, Ohio
BJM/bjm

cc: Sharon Hicks, Joseph Wilhelm, Counsel for Petitioner

 

 

CIVIL DIVISION CRIMINAL DIVISION FORECLOSURE UNIT GRAND JURY JUVENILE DIVISION VICTIM WITNESS,
419/213-2001 419/213-4700 419/213-4061 419/213-4702 419/213-6951 419/213-4591

oe

 
